BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief in
Opposition in 20-1605, Justin Terrell Atkins v. Timothy
Hooper, Warden, was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day service and e-mail to the following parties listed
below, this 12th day of October, 2021:
Christine Marie Calogero
Barrasso Usdin Kupperman Freeman & Sarver, LLC
909 Poydras Street, Suite 2350
New Orleans, LA 70112
(504) 589-9782
ccalogero@barrassousdin.com
Counsel for Petitioner
Jeff Landry
Attorney General
Elizabeth Baker Murrill
Solicitor General
Shae Gary McPhee Jr.
Counsel of Record
Deputy Solicitor General
Louisiana Department of Justice
1885 N 3rd St.
Baton Rouge, LA 70802
(225) 938-0779
mcphees@ag.louisiana.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Robert S. Tew
District Attorney
Robert Nicolas Anderson
Assistant District Attorney
District Attorney, 4th Judicial District
400 Saint John Street
Monroe, LA 71201
(318) 388-4566
nanderson@4thda.org
Counsel for Respondent

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 12, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

